No. 19-267

 

 

IN THE

Supreme Court of the Anited States

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,

v.
AGNES DEIRDRE MORRISEY BERRU, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF CHRISTIAN LEGAL
SOCIETY, AMERICAN ASSOCIATION OF
CHRISTIAN SCHOOLS, ASSOCIATION OF
CHRISTIAN SCHOOLS INTERNATIONAL,
LUTHERAN CHURCH - MISSOURI SYNOD,
NATIONAL ASSOCIATION OF EVANGELICALS,
AND QUEENS FEDERATION OF CHURCHES AS
AMICI CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,397 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 30, 2019.

Colin Casey Devon

Wilson-Epes Printing Co., Inc.
